<html>
<title> - HEARING ON THE NOMINATIONS OF PETER SILVA, STEPHEN OWENS, AND JO-ELLEN DARCY</title>
<body><pre>[Senate Hearing 111-1190]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 111-1190
 
               HEARING ON THE NOMINATIONS OF PETER SILVA,
                   STEPHEN OWENS, AND JO-ELLEN DARCY

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 12, 2009

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



       Available via the World Wide Web: http://www.gpo.gov/fdsys

                               __________
  
  
  
                         U.S. GOVERNMENT PUBLISHING OFFICE
94-584                       WASHINGTON : 2015                         
________________________________________________________________________________________                               
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a1c6d1cee1c2d4d2d5c9c4cdd18fc2cecc8f">[email&#160;protected]</a>  
                              
                               
                               
                               
                               

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED ELEVENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
AMY KLOBUCHAR, Minnesota             CHRISTOPHER S. BOND, Missouri
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico
JEFF MERKLEY, Oregon
KIRSTEN GILLIBRAND, New York
ARLEN SPECTER, Pennsylvania

                    Bettina Poirier, Staff Director
                 Ruth Van Mark, Minority Staff Director
                            C O N T E N T S

                              ----------                              
                                                                   Page

                              MAY 12, 2009
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Baucus, Hon. Max, U.S. Senator from the State of Montana.........     3
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     5
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...    46

                               WITNESSES

Darcy, Jo-Ellen, nominated to be Assistant Secretary of the Army 
  for Civil Works................................................     6
    Prepared statement...........................................     8
    Responses to additional questions from Senator Boxer.........    11
    Response to an additional question from Senator Lautenberg...    13
    Responses to additional questions from:
        Senator Inhofe...........................................    14
        Senator Voinovich........................................    19
Silva, Peter S., nominated to be Assistant Administrator of the 
  Environmental Protection Agency's Office of Water..............    21
    Prepared statement...........................................    23
    Responses to additional questions from Senator Boxer.........    26
    Response to an additional question from Senator Lautenberg...    26
    Responses to additional questions from:
        Senator Inhofe...........................................    27
        Senator Voinovich........................................    34
Owens, Stephen A., nominated to be Assistant Administrator for 
  the EPA Office of Prevention, Pesticides and Toxic Substances..    35
    Prepared statement...........................................    37
    Responses to additional questions from Senator Boxer.........    41
    Response to an additional question from Senator Lautenberg...    42
    Responses to additional questions from Senator Inhofe........    42
    Response to an additional question from Senator Voinovich....    45

                          ADDITIONAL MATERIAL

May 5, 2009, letter from the Water Resources Coalition...........    57
May 11, 2009, letter from the Water Resources Coalition..........    58
May 11, 2009, letter from the American Society of Civil Engineers    60


HEARING ON THE NOMINATIONS OF PETER SILVA, STEPHEN OWENS, AND JO-ELLEN 
                                 DARCY

                              ----------                              


                         TUESDAY, MAY 12, 2009

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:35 p.m. in room 
406, Dirksen Senate Office Building, Hon. Barbara Boxer 
(chairman of the full committee) presiding.
    Present: Senators Boxer, Inhofe, Baucus, Udall, and Carper.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. The meeting will come to order. I apologize 
for running 5 minutes behind schedule.
    We are here today to consider President Obama's nominations 
for three very important leadership positions at the EPA and 
the Army Corps.
    I would like to start off by welcoming Jo-Ellen Darcy, who 
is nominated for Assistant Secretary of the Army for Civil 
Works. Jo-Ellen has served as professional staff on this 
Committee with distinction and most recently served as an 
advisor to Senator Baucus on the Finance Committee. We are just 
thrilled to see you here.
    The Army Corps has a direct impact on jobs, lives and 
communities. As Hurricane Katrina made clear, people really 
depend on the Corps to safeguard their lives and their 
livelihoods. In my own State of California, the safety of 
thousands of Sacramento residents depends on a system of Corps 
flood control projects. They maintain harbors, such as San 
Francisco, Oakland and Long Beach, facilitating the flow of 
much of our Nation's commerce. As a matter of fact, 40 percent 
of all our imports come through the Long Beach-Los Angeles 
ports. And many of the Nation's most ambitious efforts to 
restore degraded ecosystems such as the Everglades and the 
coasts of Louisiana are led by the Corps.
    In the last Congress, we passed the Water Resources 
Development Act which authorized many important new projects 
and brought about reforms in the way the Corps does business. I 
was very pleased with that. I think that is was 7 years that we 
had not had a water bill, so we got that done. We have a lot 
more work to do with the Corps and we are thrilled that you 
have nominated.
    I would also like to welcome Peter Silva who has been 
nominated to be Assistant Administrator for the EPA's Office of 
Water. This office works to ensure that families have safe 
drinking water and they also work to keep our Nation's rivers 
and lakes clean. We remember the days, at least I do, when our 
lakes were on fire. We do not want to go backward.
    Mr. Silva comes from my home State where he was Senior 
Policy Advisor for the Metropolitan Water District which 
provides drinking water to, Senator Baucus, 19 million people. 
So, he comes to us with tremendous experience. Protecting our 
Nation's waterways has been made much more challenging by 
Supreme Court cases that have undermined the historic scope and 
application of the Clean Water Act and I look forward to moving 
ahead with a legislative solution to the serious problem as 
quickly as possible. I know Senator Baucus, Senator Klobuchar, 
Senator Voinovich, a lot of them are working hard and we are 
talking with the CEQ to resolve this. But your expertise will 
be essential in implementing the innovative clean water and 
drinking water programs that this Committee will be voting on 
Thursday.
    It has been over 20 years since we have reauthorized the 
Clean Water Revolving Fund and more than 12 years since we 
reauthorized the Drinking Water Revolving Fund. I have great 
news from our Committee. The Big Four on this are myself, 
Senator Inhofe, Senator Crapo and Senator Cardin. We have 
reached an agreement to move a bipartisan bill through the 
Committee. So we are really thrilled.
    It is also critical that safe drinking water standards for 
contaminants for perchlorate are finally adopted so that 
drinking water and wastewater requirements are updated to 
reflect the latest science.
    And finally, last but certainly not least, I would like to 
welcome Stephen Owens, who is nominated to be Assistant 
Administrator for EPA's Office of Prevention, Pesticides and 
Toxic Substances. That office helps prevent pollution before it 
is created, to promote safer chemicals, to provide leadership 
in the EPA's scientific decisionmaking on chemical management 
issues. Mr. Owens brings his experience at the Environmental 
Council of the States and as Director of Arizona's Department 
of Environmental Quality.
    I am pleased to see that Mr. Owens has a clear record of 
working to protect children from dangerous chemicals. He 
launched Arizona DEQ's Children's Environmental Health Project 
and he established an Office of Children's Environmental 
Health. We have a duty to protect our children and when we do, 
we will protect the rest of us as well. I will be working with 
my colleague, Senator Lautenberg, and members of this Committee 
to update the toxic laws which do not reflect the most current 
science on these issues.
    I look forward to hearing from the witnesses. But I know 
that Senator Baucus' schedule is beyond explanation and I am 
thrilled that he is here and it is a real tribute to you, Jo-
Ellen, because I know he very much wants to introduce you. So, 
Senator, if you would like to both make your statement and 
introduce Jo-Ellen, that would be fine.

             OPENING STATEMENT OF HON. MAX BAUCUS, 
             U.S. SENATOR FROM THE STATE OF MONTANA

    Senator Baucus. Thank you, Madam Chairman, very, very, very 
much. That is very gracious of you and I do want to take the 
opportunity to introduce Jo-Ellen.
    Abraham Lincoln once said----
    Senator Boxer. What an introduction.
    [Laughter.]
    Senator Baucus [continuing]. Character is like a tree, and 
reputation like its shadow. The shadow is what we think of it. 
The tree is the real thing.
    Having known and worked with Jo-Ellen for at least 16 
years, I can assure you that Jo-Ellen has an unprecedented 
knowledge of the Army Corps of Engineers and the highest 
character. She has earned her reputation. Jo-Ellen is the real 
thing.
    She joined the staff of this Committee in 1993 when I 
became Chairman. She worked on the Committee for more than a 
decade. She was responsible for, among other things, 
legislation relating to the Clean Water Act, Safe Drinking 
Water Act and Endangered Species Act. Perhaps her most 
important contribution in this area was her work on the Safe 
Drinking Water Act of 1996 which, in my mind, is a model 
environmental law. Why? Because it makes the law work more 
efficiently for cities and towns while at the same time it 
improves the protection of public health.
    Most relevant to the position to which she has been 
nominated, Jo-Ellen is also the principle staffer responsible 
for legislation relating to the Water Resources Development Act 
which we around here know as WRDA. And she became one of the 
Nation's foremost authorities on that law.
    During her tenure, Jo-Ellen helped pass some of the Corps' 
most sweeping initiatives, from restoring the Everglades to 
protecting New Orleans in the wake of Hurricanes Rita and 
Katrina, to requiring independent peer review of Corps 
projects, something we all worked on quite aggressively.
    Jo-Ellen's work has restored ecosystems, improved public 
safety, repaired our water infrastructure and made the Corps 
more transparent and accountable. If confirmed, I know she will 
continue to improve the work of the Army Corps of Engineers.
    In 2006, I was able to persuade Jo-Ellen to join the staff 
of the Senate Finance Committee where she has been instrumental 
in developing a series of tax incentives for environmental 
protection including those enacted as part of the Farm Bill. 
Jo-Ellen has a record of great accomplishments which is 
reflected in important environmental laws and in environmental 
restoration projects all across the Country. She knows the 
Civil Works Program of the Army Corps of Engineers as well as 
anyone. She knows the law. She knows Congress, in particular, 
the Senate and its committees. And she is uniformly respected 
for her effective, pragmatic, bipartisan approach to her work.
    On a personal note, I would like to add that Jo-Ellen has 
achieved all of these accomplishments not only because of 
brains and hard work, but also because of her values. Her 
father, Dick Darcy, was a detective on the Fitchburg, 
Massachusetts police force. He and his wife, Jean, raised Jo-
Ellen to have strong values, especially fairness and open-
mindedness, qualities that will serve her well.
    I am sure that, although he has passed away, Dick Darcy 
would be very proud of his daughter today. I know that Jo-
Ellen's mom, who was not able to travel here today, and her 
sisters and brothers and cousins and nieces and nephews and 
believe me, I know a whole lot of them, could not be more 
pleased and proud for her nomination.
    Like each of us here, I believe that there are few higher 
callings than public service. Jo-Ellen Darcy is the epitome of 
someone who has devoted her professional career to service. And 
I could not be more proud that the President has nominated her 
to serve as Assistant Secretary for the Army Corps for Civil 
Works. Jo-Ellen is the real thing.
    Thank you, Madam Chairman.
    [The prepared statement of Senator Baucus follows:]

              Statement of Hon. Max Baucus, U.S. Senator 
                       from the State of Montana

    I want to spend a few minutes at the beginning of today's 
hearing introducing a woman who needs no introduction to this 
Committee--Ms. Jo-Ellen Darcy, who has been nominated by the 
President to be Assistant Secretary of the Army for Civil 
Works.
    Abraham Lincoln once said ``character is like a tree and 
reputation like its shadow. The shadow is what we think of it; 
the tree is the real thing.''
    Having known and worked with Jo-Ellen for the last 16 
years, I can assure you that Jo-Ellen has an unprecedented 
knowledge of the Army Corps of Engineers and the highest 
character. She has earned her reputation. Jo-Ellen is the real 
thing.
    Jo-Ellen joined the staff of this Committee in 1993, when I 
became Chairman. She worked on the Committee for more than a 
decade. She was responsible for, among other things, 
legislation relating to the Clean Water Act, the Safe Drinking 
Water Act, and the Endangered Species Act. Perhaps her most 
important contribution, in this area, was her work on the Safe 
Drinking Water Act of 1996, which is, to my mind, a model 
environmental law because it makes the law work more 
efficiently for cities and towns at the same time that it 
improves the protection of public health.
    Most relevant to the position to which she has been 
nominated, Jo-Ellen also was the principal staffer responsible 
for legislation relating to the Water Resources Development 
Act, or WRDA, and she became one of the Nation's foremost 
authorities on that law.
    During her tenure, Jo-Ellen helped pass some of the Corps' 
most sweeping initiatives--from restoring the Everglades to 
better protecting New Orleans in the wake of Hurricanes Rita 
and Katrina to requiring independent peer review of Corps' 
projects.
    Jo-Ellen's work has restored ecosystems, improved public 
safety, repaired our water infrastructure, and made the Corps 
more transparent and accountable. And if confirmed, I'm sure 
she will continue to improve the work of the Army Corps of 
Engineers.
    In 2006, I was able to persuade Jo-Ellen to join the staff 
of the Senate Finance Committee, where she was instrumental in 
developing a series of tax incentives for environmental 
protection, including those that were enacted as part of the 
Farm Bill.
    Jo-Ellen Darcy has a record of great accomplishment, which 
is reflected in important environmental laws and in 
environmental restoration projects all across the country. She 
knows the civil works program of the Army Corps as well as 
anyone. She knows the law. She knows Congress, and, in 
particular, the Senate and its committees. And she is uniformly 
respected for her effective, pragmatic, and bipartisan approach 
to her work.
    On a personal note, I'd like to add that Jo-Ellen has 
achieved all of these accomplishments not only because of 
brains and hard work, but also because of her values. Her 
father, Dick Darcy, was a detective on the Fitchburg, 
Massachusetts, police force. He and his wife, Jean, raised Jo-
Ellen to have strong values, especially fairness and open-
mindedness, qualities that will serve her well.
    I am sure that, although he has passed away, Dick Darcy 
would be proud of his daughter today. And I know that Jo-
Ellen's mom, who was not able to travel here today, and her 
sisters, brothers, cousins, nieces, and nephews, could not be 
more pleased and proud about this nomination.
    Like each of us here, I believe that there are few higher 
callings than public service. Jo-Ellen Darcy is the epitome of 
someone who has devoted her professional career to service, and 
I could not be more proud that the President has nominated her 
to serve as Assistant Secretary of the Army for Civil Works. 
Jo-Ellen is the real thing.

    Senator Boxer. Well, I do not think you have to say 
anything for yourself when we get to you other than hi and I 
think you had us at hi.
    [Laughter.]
    Senator Boxer. Anyway, Senator Baucus, really, thank you so 
much for taking the time. I think, you know, there is something 
to be said about this that we know that our success depends on 
the people we have around us. There is no question. If we did 
not have loyal, dedicated staff, how could we possibly do it? 
There are hundreds of issues and we count on people like Jo-
Ellen and a lot of them that are sitting behind me and behind 
Max and Tom right now. It is a real tribute, Senator Baucus, 
that you came over and made that eloquent introduction. And if 
you need to go, we totally understand.
    Senator Baucus. Thanks, Madam Chairman. One other point 
here. Jo-Ellen is one of those people who, if you ask to do 
something, you do not give it a second thought because you know 
it is done. She is one of those people who, if she says she is 
going to do something, you know it is going to be done. It is 
because she cares and she works so hard. They do not come much 
better than Jo-Ellen Darcy and we are very lucky to have her.
    Senator Boxer. But other than that, you do not have any 
good words about her?
    [Laughter.]
    Senator Baucus. Nothing at all.
    Senator Boxer. Thank you. Senator Udall.
    Senator Udall. That was quite a resounding endorsement by 
Senator Baucus.
    I am going to hold my questions and hold my opening until 
we get to the questioning of the witnesses here.
    Thank you, Madam Chair.
    Senator Boxer. Senator Carper.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thank you, Madam Chair.
    I was wondering what I was going to say to Jo-Ellen Darcy 
but Senator Baucus mentioned it: if you want to get something 
done, Jo-Ellen is the person to get it done. If she says she 
will get it done. I would like to take about 5 minutes and talk 
about beach replenishment.
    [Laughter.]
    Senator Carper. In fact, those beaches on DelMarVa and 
throughout the--no, I am just kidding.
    I had the privilege of working with Jo-Ellen when she was 
here and on Finance and she is just a delight and every bit as 
good as Senator Baucus has said. We welcome you. We welcome 
each our other witnesses.
    I was very pleased to spend some time with Mr. Silva the 
other day and I think the Administration has once again picked 
some terrific people to serve in the executive branch of the 
Government. At least in one respect that is our loss, in the 
legislative branch, but we look forward to working with each 
one of you and hope that you are confirmed and hope you are 
confirmed promptly. To the extent that we can be helpful in 
that process, and I think we can, we certainly want to be. 
Congratulations and good luck.
    Thank you.
    Senator Boxer. Thank you so much, Senator.
    So, since, Jo-Ellen, you were introduced specially by 
Senator Baucus, we are going to go this way down the row and 
ask of you to please, if you have any family or friends that 
you would like to introduce, feel free to so do.
    So, Jo-Ellen, the time is yours.

    STATEMENT OF JO-ELLEN DARCY, NOMINATED TO BE ASSISTANT 
             SECRETARY OF THE ARMY FOR CIVIL WORKS

    Ms. Darcy. Chairman Boxer, Senator Inhofe, members of the 
Committee, I am honored and privileged to be here today as 
President Obama's nominee to be Assistant Secretary of the Army 
for Civil Works.
    I also want to take a minute to thank Senator Baucus for 
the very kind and generous words that he had to say about me.
    I am here today because of my experience with the Corps and 
its mission, but I am also here because of the love and support 
of family and friends. As Senator Baucus said, most of my 
family could not make it to Washington today but are watching 
via your Committee website at home. One of my sisters was able 
to be here today and I would like to introduce her, Dr. 
Margaret Darcy. She is sitting here in the audience.
    Senator Boxer. Please stand if you would.
    [Laughter.]
    Ms. Darcy. I have several friends and colleagues, both 
current colleagues and former colleagues, who are here today 
and I would like to thank them for their support and guidance 
over the years.
    There is one very important person who is not here today 
and that is my dad. I know he is watching from on high and 
saying to me what he always said to us. My father taught us, 
``yes, we can'' long before President Obama reminded us of that 
fact. He was the ultimate public servant, serving more than 25 
years as a police officer and gave us every opportunity to 
succeed at whatever we tried.
    I have sat at this witness table many times, not as a 
Presidential nominee, but as a Committee staffer, ready to 
answer your questions on the legislation we were considering. I 
spent more than 13 years sitting on the bench behind you during 
hearings and markups, even before there was a bench behind you.
    Regardless of where I sit, on the staff bench or at this 
witness table, the Senate Environment and Public Works 
Committee will always be where I came from and I am grateful 
for that.
    I know that the position for which I have been nominated 
promises to be the greatest challenge of my career. I do not 
take this challenge lightly. I approach it with humility and 
dedication.
    My experience as a Senate staffer for the last 16 years and 
my time working on Great Lakes issues for Governor Jim 
Blanchard of Michigan, has given me the opportunity to work 
with the Corps of Engineers on project authorizations and 
policy development. There is not a more dedicated group of 
public servants than the men and women of the Corps.
    The Corps of Engineers has a great history. The Army 
established the Corps as a separate, permanent branch in 1802. 
Since then, the Corps has responded to changing defense 
requirements and played an integral part in the development of 
this Country. Throughout the 19th century, the Corps built 
coastal fortifications, eliminated navigational hazards, 
explored and mapped the Western frontier and constructed 
lighthouses, jetties and piers for harbors, and building and 
monuments right here in the Nation's capital.
    In the 20th century, the Corps became the lead Federal 
flood control agency and significantly expanded its civil works 
activities becoming, among other things, a major provider of 
hydroelectric energy and the Country's leading provider of 
recreation. In the late 1960s, the Corps became a leading 
environmental and preservation agency. It now carries out 
natural and cultural resource management programs at its water 
resources projects and regulates activities in the Nation's 
wetlands.
    As the Corps moves into the 21st century, I am confident 
that they will to rise to new challenges. Faced with a limited 
budget, tackling the job of refurbishing the Nation's aging 
water infrastructure will require the ingenuity that the Corps 
has demonstrated throughout its history. Balancing the 
competing water resources needs throughout the Country will 
take a national vision while recognizing regional differences. 
Preserving and creating wetlands, affording recreational 
opportunities, and maintaining the world class navigation 
system that this Country enjoys is integral to that national 
vision.
    If confirmed, I look forward to navigating the Corps 
through the challenges ahead.
    I want to thank you for the opportunity to testify and will 
answer any questions.
    Thank you.
    [The prepared statement of Ms. Darcy follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
            
    Senator Boxer. Thank you.
    Peter Silva, nominated for Assistant Administrator, EPA 
Office of Water.

    STATEMENT OF PETER S. SILVA, NOMINATED TO BE ASSISTANT 
 ADMINISTRATOR OF THE ENVIRONMENTAL PROTECTION AGENCY'S OFFICE 
                            OF WATER

    Mr. Silva. Thank you, Madam Chairman.
    Please allow me to express my gratitude to you, Madam 
Chair, and Ranking Member Inhofe, for holding this hearing and 
to all of the Committee members for the environmental 
leadership that you provide.
    First of all, let me introduce my wife of 32 years, Ana 
Silva, and our son, Diego, who have come here from San Diego to 
be with us today.
    Senator Boxer. Welcome.
    Mr. Silva. My mom wanted to be here today but she is 90 now 
and it is hard for her to travel. But she is here in thought 
with us.
    I am humbled that President Obama has nominated me for the 
position of Assistant Administrator for Water at the U.S. 
Environmental Protection Agency. I am also honored that EPA 
Administrator Jackson has expressed her confidence in my 
ability to work as part of her team.
    I have worked all my professional career of nearly 32 years 
in the water and wastewater fields. Since graduating from Cal-
Poly Pomona with a degree in Civil Engineering, I have held a 
number of positions in the public sector related to both the 
provision of drinking water and the management of wastewater. I 
have served agencies at the local, city, State, Federal and 
international levels. In serving for those agencies, I have 
been both a regulator and someone who has been regulated. I 
believe this experience gives me a unique perspective on what 
it takes to bring divergent views on an issue together to try 
to find the common ground.
    Within my career, I have seen how effective the Clean Water 
Act, the Safe Drinking Water Act, and other laws have been in 
protecting and enhancing the water resources of this Nation. We 
have made great progress in addressing point source pollution 
and in establishing key regulations to make our drinking water 
safe and reliable. A key component of that success has been the 
Federal funding made available to States and communities to 
build needed water and wastewater infrastructure.
    However, despite the considerable progress we have made in 
the last three decades, we now see additional challenges have 
arisen in the areas of non-point source pollution and in new 
emerging pollutants of concern. Some of our great water bodies 
are now threatened and the health risks of these new pollutants 
need to be better understood and addressed.
    The challenges we face now are similar in scope to those we 
confronted in the late 1960s and early 1970s. We need to 
confront them with a similar national leadership. We will need 
new models of collaboration, especially since some of these 
major challenges impact multiple States, tribes and 
jurisdictions. Additionally, we must analyze when and how 
regulatory frameworks can be used to accomplish the most 
efficient results. Finally, we need to carefully consider how 
to ensure that our water, wastewater, and storm water 
infrastructure can be better financed and managed sustainably.
    As we move forward to address these pressing challenges to 
our Nation's waterways, I believe we have a unique opportunity 
to work with stakeholders at all levels of government, as well 
as non-governmental organizations, in crafting new solutions 
for this new generation of issues.
    I am really excited about the opportunity to serve EPA and 
our Country at this time in our history. I pledge to work with 
this Committee, Congress and the Administration in protecting 
America's waters so that they can be used and enjoyed by all 
citizens.
    Again, thank you for this opportunity.
    [The prepared statement of Mr. Silva follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
          
    Senator Boxer. Thank you, sir.
    And now, last but not least again, Stephen Owens, nominee 
for Assistant Administrator, EPA Office of Prevention, 
Pesticides and Toxic Substances.

   STATEMENT OF STEPHEN A. OWENS, NOMINATED TO BE ASSISTANT 
ADMINISTRATOR FOR THE EPA OFFICE OF PREVENTION, PESTICIDES AND 
                        TOXIC SUBSTANCES

    Mr. Owens. Thank you, Madam Chairman.
    First of all, please let me thank you and Ranking Member 
Inhofe for holding this hearing and giving me the opportunity 
to be here. I also want to thank Senator Inhofe, Senator Udall 
and other members of this Committee and their staff for taking 
the time to meet with me during this past week. I appreciated 
that very much.
    Also, Madam Chairman, if I may, I would like to introduce 
my wife, Karen Owens, who is here with me today. She is sitting 
behind me.
    Senator Boxer. Welcome, Karen.
    Mr. Owens. Karen and I have two terrific teenage boys, John 
and Ben, who are back home in school today but are very much 
with us in spirit.
    I am extremely honored to have been nominated by President 
Obama to be the Assistant Administrator for the Office of 
Prevention, Pesticides and Toxic Substances at the 
Environmental Protection Agency. The President and 
Administrator Lisa Jackson have made addressing toxic chemicals 
a top priority for EPA.
    I grew up in a poor family. We lived in public housing for 
a time when I was young and I had part-time jobs while growing 
up to help make ends meet.
    I worked my way through college and law school with the 
help of work-study jobs and student loans. I was fortunate to 
be admitted to Brown University, where I graduated with honors, 
and thereafter to attend Vanderbilt Law School, where I was 
Editor in Chief of the Law Review.
    I have always had a deep commitment to public service. For 
the last 6 years, as you indicated, Madam Chairman, from 
January 2003 until January of this year, I served as Director 
of the Arizona Department of Environmental Quality under 
Governor Janet Napolitano, making me the longest serving 
Director in ADEQ's history. As Arizona's environmental 
protection agency, ADEQ is responsible at the State level for 
many of the programs overseen by OPPTS.
    As the father of a son with asthma, I made protecting 
children's health and reducing children's exposure to toxic 
pollutants a top priority at ADEQ. In early 2003, I launched 
the Children's Environmental Health Project and I later 
established an Office of Children's Environmental Health at the 
Department. Among our many efforts, we worked with schools to 
protect children from exposure to lead in drinking water, 
reduced mercury-containing equipment in schools and minimized 
the use of pesticides on school properties through integrated 
pest management. We promoted environmentally healthy schools 
and ``green'' schools, and we required facilities with permits 
or approvals from ADEQ to ensure that their activities do not 
present environmental health risks to our children.
    In pollution prevention, we launched initiatives to remove 
mercury switches in old motor vehicles, help businesses 
implement environmental management systems, promote the 
construction of ``green'' buildings and assist facilities 
seeking LEED design and certification. We also worked closely 
with Indian nations in Arizona to reduce toxic pollution on 
tribal lands.
    We established an aggressive outreach effort to help local 
businesses and communities reduce exposure to asbestos hazards 
in aging buildings, especially in rural communities like those 
along Old Route 66 in Northern Arizona, where many historic old 
buildings have asbestos.
    Prior to becoming ADEQ Director, I was privileged to serve 
as a member of the Joint Public Advisory Committee of the North 
American Commission on the Environmental Cooperation where we 
addressed issues such as persistent organic pollutants, 
agricultural biotechnology, lead contamination and the 
development of regional action plans for toxic substances, 
among many other matters.
    I began my Government service years ago in the early 1980s 
on the staff of the U.S. House Committee on Science and 
Technology. There I learned about a wide array of programs and 
activities, as well as emerging issues and technologies which 
are now within the purview of OPPTS.
    My experiences with the Science and Technology Committee 
and elsewhere have led me to the strong belief that science 
must be the basis for what EPA does, as Administrator Jackson 
said in her testimony before this Committee in January. I 
strongly agree with Administrator Jackson that EPA's scientific 
decisions should reflect the expert judgment of the Agency's 
career scientists and independent advisors, and I pledge that 
if I am confirmed as Assistant Administrator, the actions of 
OPPTS will be based on science and the rule of law.
    Madam Chairman, thank you again for the opportunity to be 
here today and I look forward to answering any questions that 
you may have.
    [The prepared statement of Mr. Owens follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
        
    Senator Boxer. Thank you so much.
    Senator Inhofe.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Madam Chairman. I will be very 
brief.
    First of all, I was glad to be able to meet with Mr. Owens 
and Mr. Silva in my office and, of course, everyone knows Jo-
Ellen Darcy and why in the world you are willing to do this, I 
do not know, but I am glad you are.
    [Laughter.]
    Senator Inhofe. It is a tough job, and after all of the 
water bills that we have been through, and now you are going to 
be on the other side of this thing. So, it really will be 
helpful for us to know that we are dealing with someone who has 
been there, has done that, and recognizes the problems and the 
needs that are really critical.
    I think, Mr. Silva, as I told you in my office, the water 
situation in my State of Oklahoma, is one of the big issues. 
You and I talked about some of the ways we are going to 
approach that. And the same thing I would say for Mr. Owens who 
has a very similar background in his State of Arizona that we 
have and some of the same problems that we have in Oklahoma. We 
think, and we dealt with this, we are dealing with chemicals 
for several years on this Committee and we have got to keep in 
mind that we want to protect the public but we need the 
chemicals. It is a balance and I think it is one that you are 
uniquely qualified to handle.
    So, I am looking forward to supporting the nomination of 
all three of you, then working with you.
    Thank you, Madam Chairman.
    [The prepared statement of Senator Inhofe follows:]

            Statement of Hon. James M. Inhofe, U.S. Senator 
                       from the State of Oklahoma

    Madam Chairman, I am delighted to welcome our nominees 
today.
    I have met with Peter Silva and Stephen Owens, and I know 
Jo-Ellen Darcy, so I have been able to determine to some degree 
their perspectives on issues. I do, however, have a few 
questions I would like to ask today.
    Water issues are vitally important to my State of Oklahoma. 
It is encouraging that Mr. Silva comes from the west. It means 
he has seen firsthand the challenges that face those of us who 
live in areas where the cost and availability of water are 
significant factors. I trust Mr. Silva will handle water issues 
at the Environmental Protection Agency with a great deal of 
sensitivity to the needs of States like mine that face 
significant water problems. I want to discuss with him how we 
can do a better job of helping small communities that can't 
afford to meet Washington's unfunded water treatment mandates.
    As for Mr. Owens, his responsibilities will include 
overseeing the handling of chemicals that are essential to our 
safety, quality of life and economic well-being. There are 
issues involving the registration and use of chemicals that we 
need to address so that we can protect the public while 
maintaining the Nation's economic vitality. I want to explore 
how we will find the right balance.
    Those of us who have been Members of EPW for a while have 
seen Jo-Ellen Darcy sitting at that witness table many times as 
a staffer answering questions about various pieces of 
legislation. Today she sits there as President Obama's nominee 
to be the Assistant Secretary of the Army for Civil Works. I'm 
not convinced that she's not simply jumping from the frying pan 
into the fire, but I offer my sincere congratulations 
nonetheless. Jo-Ellen appeared before the Armed Services 
Committee 2 weeks ago, but I'd like to reiterate in this 
hearing room how pleased I was to hear of her nomination. Her 
intelligence, honesty and ability to work with people 
advocating a wide range of policy positions made her 
instrumental to the development of the past several Water 
Resources Development Acts, including WRDA 2007. I believe 
these traits will also serve her well as the next ASA, and I 
look forward to working with her in that capacity.
    I want to ask each nominee one question right at the top, 
and that is whether each of you will agree to answer the 
questions and correspondence from the minority members of this 
committee as quickly as possible, and with the same diligence 
as you would with communications from the majority members?
    Thank you, Madam Chairman.

    Senator Boxer. Thank you so much, Senator.
    Now, a lot of us will put questions into the record and how 
many days would we ask them to respond? If you could respond by 
close of business on Thursday because we are very anxious to 
vote you out of Committee. We are very pleased that Senator 
Inhofe is supporting all three of you. This is very good for 
us.
    Let me ask my first question to Jo-Ellen Darcy, and it has 
to do with Sacramento flood control. I think you are aware of 
the pressing need for adequate flood protection in the 
Sacramento region. In terms of the people who are at risk, it 
just dwarfs anything else you can imagine. There is a lot that 
has to be done. So this is, basically, I am asking you to make 
a commitment to me to provide this Committee with an update on 
the Corps' progress toward meeting Sacramento's remaining flood 
control needs and to work with this Committee to ensure that 
these projects proceed in an expedited manner.
    Ms. Darcy. If confirmed, I absolutely will.
    Senator Boxer. All right. And I have some other questions 
to follow up but I will not do them now. I will do them in 
writing.
    In terms of Corps reform, many reforms were included in the 
2007 WRDA Bill. I know you were very aware of these. One of 
them is an independent peer review of Corps projects and 
updating the Corps planning guidelines. If confirmed, will you 
make it a priority to ensure that these provisions of WRDA 2007 
are being quickly implemented in accordance with congressional 
intent and to give us an update on the status of the 
implementation as soon as you can?
    Ms. Darcy. If confirmed, I will, Senator.
    Senator Boxer. Very good. And on the stimulus, we wanted to 
make sure that you would commit to regularly report to this 
Committee on the expenditure of Recovery Act funding that goes 
through the Corps, to do everything in your power to ensure 
that these funds are spent quickly and efficiently.
    Ms. Darcy. Yes, I will.
    Senator Boxer. That is excellent. So we really will be 
calling on you.
    Mr. Silva, I am very proud to have a hometown guy here for 
me and I compliment you on your great work at home because most 
people do not look at water districts the way we do at home. 
You know, there was a whole movie made about water in 
California. It was called Chinatown. And, if you remember, the 
whole theme of it is getting water into the southern part of 
the State was the biggest issue.
    Water is probably one of our top issues because we have 
droughts, I will not mention global warming but for some reason 
they are increasing, we have problems and we are going to have, 
it looks like because of the excellent bipartisan work of 
Senator Inhofe, Senator Carper and Senator Crapo, it looks 
really good that we are going to have this revolving fund for 
both clean water and drinking water coming before us.
    Do you commit to work with this Committee to ensure that we 
are adequately investing in the Nation's wastewater and 
drinking water infrastructure?
    Mr. Silva. Yes, Madam Chair, I do.
    Senator Boxer. Good. And will you also give us updated 
reports on how the stimulus funding is going as it goes through 
your area of expertise?
    Mr. Silva. Yes, if confirmed I surely will, Madam Chair.
    Senator Boxer. Excellent. And, I am worried about 
perchlorate in water. We know we have seen many investigative 
reports that it shows up in mother's milk. We know that it is 
all over the Country, almost in every State, not quite. If 
confirmed, do you commit to assess whether EPA has sufficient 
data to regulate perchlorate in drinking water and to issue an 
opinion within the next 3 months of your tenure?
    Mr. Silva. Yes, if confirmed, I will certainly try to do 
that.
    Senator Boxer. All right. You will try to do that. If you 
cannot do that in 3 months, I expect to know why because this 
has gone on and one. So we are going to hold you to a report 
and hope that we do not have to have an argument about it here.
    The other issue is pharmaceuticals in water. EPA is part of 
an interagency group examining the scientific and regulatory 
nature of this issue. If confirmed, will you commit to make the 
record of your office's participation in this group public and 
to step up EPA's water quality monitoring efforts for 
pharmaceuticals?
    Mr. Silva. Yes, I will.
    Senator Boxer. OK. Very good. We have so many things going 
on here for all of you.
    In 2008, EPA issued a Clean Water Act rule that regulated 
CAFOs, the Concentrated Animal Feeding Operations. If 
confirmed, do you commit to update Committee staff within 30 
days of your confirmation on EPA's enforcement effort under the 
rule?
    Mr. Silva. If confirmed, yes, I will.
    Senator Boxer. OK. And we have some other questions for you 
but my time is running out so I am going to turn to Stephen 
here. Let us see, where are Stephen's questions? I think they 
are right here.
    Chemical regulations. By the way, I was touched by your 
saying you have a child with asthma because Senator Lautenberg 
is always reminding us that he has a grandson with it and you 
know, people think that because there is so much asthma maybe 
it is not serious. It is very, very, very scary for a parent or 
a grandparent to see a child gasping for breath. And so, I 
think, frankly, the fact that you have lived with this, we do 
not ever have to say to you, you know, do you care about kids 
here because I know you know that kids are not little adults, 
they are different from us, and they need attention.
    If confirmed, do you commit to provide technical advice and 
other assistance to my staff who are working with Senator 
Lautenberg's staff to modernize our Country's system for 
regulating toxic chemicals?
    Mr. Owens. Yes, Senator, if confirmed I pledge to work with 
you on that.
    Senator Boxer. Thank you. EPA is currently considering how 
to regulate coal ash. We all know of that disaster that 
happened in Tennessee in their Kingston plant. However EPA 
decides to proceed, and I asked Lisa Jackson about it this 
morning, there is a need for EPA to investigate the potential 
for coal ash to leech toxic metals and to prevent such 
pollution. If confirmed, do you commit to help try to find ways 
to reduce pollution problems caused by heavy metals in coal 
combustion waste?
    Mr. Owens. Yes, Senator, if confirmed, I look forward to 
working with you on that and with the offices at EPA that are 
looking at that issue to address that problem.
    Senator Boxer. I also have additional questions for all of 
you but right now, Senator Inhofe, do you have any questions in 
addition to your opening statement? Do you have any questions 
in addition to the opening statement?
    Senator Inhofe. Yes, just a couple of questions.
    Senator Boxer. Go ahead.
    Senator Inhofe. Mr. Silva, first I would say, do you 
believe the Federal jurisdiction of the Clean Water Act should 
extend beyond navigable waters?
    Mr. Silva. Senator, on that point, I would like to let you 
know that when I was on the State water board, we had the first 
SWANCC decision come down which created quite a bit of 
confusion in terms of jurisdiction and I understand that the 
Rapanos case has made that murkier. But I do believe that for 
EPA it is very critical that we have a better definition of 
navigable waters.
    Senator Inhofe. I think you are right and I would only ask 
that as you are progressing along these lines that you and I 
can talk about it. We have problems. I suspect they are not 
unique to Oklahoma. But I do know that we have problems with 
waters in ditches and things that we have to be able to use 
some logic on.
    What role do you believe States should play in setting 
water quality standards?
    Mr. Silva. Well, Senator, I think the States have a very 
critical role in that area in terms of some of their own State 
regulations where Federal regulations do not apply, but also 
just in terms or providing input to the Federal Government on 
how to set those standards.
    Senator Inhofe. Yes. Yes. It is very difficult for me to go 
back to my State of Oklahoma when something that they have had 
very strong feelings about and are doing very well is in 
jeopardy because of some Federal regulation. So again, this is 
another thing where I think you, being a very reasonable 
person, we will be able to talk about these things.
    And the same with you Mr. Owens. Let me ask you a question. 
What is your philosophy on how best to assess the risks of 
chemicals?
    Mr. Owens. I am sorry, I did not hear the last word after 
risk.
    Senator Inhofe. Assessing the risk of chemicals, how to 
best do it. What is your philosophy? What do you keep in mind 
when you're trying to assess those risks?
    Mr. Owens. Well, Senator, I think the primary consideration 
that has to weigh not only on that issue but on any issue in 
front of the Office of Prevention, Pesticides and Toxic 
Substances is what does the science say? We really do need to 
be governed by the science as well as the rule of laws as 
indicated in my statement and my responsibility as the 
Assistant Administrator, if I am confirmed, is to provide 
vision and direction to the Office of Prevention, Pesticides 
and Toxic Substances so that the science can come forward and 
we can make decisions based on that. That is the commitment I 
make to you here today.
    Senator Inhofe. That is what I appreciate very much.
    And Ms. Darcy. I guess it is not Jo-Ellen anymore. We have 
a problem in Oklahoma that a few other States have, and that is 
that even when there is available municipal water supply 
storage at the existing reservoirs, which we have more than 
most other States do in the State of Oklahoma, and the price of 
that water supply storage makes it prohibitively expenses. Do 
you know how long it has been since this policy has been 
reevaluated? Has anyone looked into it recently?
    Ms. Darcy. Senator, I do not know how long it has been 
since it has been looked like but I know----
    Senator Inhofe. Do you think it is a good idea to look into 
it again?
    Ms. Darcy. I do. It seems as though every water bill 
someone has an issue with pricing for water storage so it is 
probably something that we do need to take a look at.
    Senator Inhofe. And you have been here and we have talked 
about what was, it is not now, but what was the most serious 
Superfund site called Tar Creek in the State of Oklahoma. We 
have done a great job, everyone has pulled together and we 
finally got even the Department of the Interior and all of the 
lawyers to talk to each other and so we are doing really great. 
Is there a lot left to be done that would affect the Corps of 
Engineers in terms of the land that is left there? We are 
pretty much OK on the relocations and some of those things, but 
the Corps will be involved and I would hope that you would be 
very sensitive to finishing up what we have started and working 
with me together on that as one of your priorities.
    Ms. Darcy. I look forward to it.
    Senator Inhofe. We have one question we ask everyone and I 
would like to have all three of you verbally respond, if you 
would. I am going to ask each nominee one question right at the 
top, and that is whether each of you will agree to answer the 
questions and correspondence from the minority members of this 
Committee as quickly as possible and with the same diligence as 
you would with communications from the majority members.
    [Witnesses respond in the affirmative.]
    Senator Inhofe. Thank you very much. Thank you, Madam 
Chairman.
    Senator Boxer. Thank you very much. And since Senator 
Inhofe has his questions, I have three questions that I have to 
ask you and so we will just go right through the line.
    Do you agree if confirmed to appear before this Committee 
or designated members of this Committee and other appropriate 
committees of the Congress and provide information subject to 
appropriate and necessary security protection with respect to 
your responsibilities?
    [Witnesses respond in the affirmative.]
    Senator Boxer. OK. And second, do you agree to ensure that 
testimony, briefings, documents and electronic and other forms 
of communication of information are provided to this Committee 
and its staff and other appropriate committees in a timely 
manner?
    [Witnesses respond in the affirmative.]
    Senator Boxer. And last, do you know of any matters which 
you may or may not have disclosed that might place you in any 
conflict of interest if you are confirmed?
    [Witnesses respond in the negative.]
    Senator Boxer. Thank you so much. And now we will call on 
Senator Udall.
    Senator Udall. Thank you, Madam Chair.
    First of all, just listening to all of you, I think it is a 
wonderful thing to see folks in public service like you that 
are willing to continue it and I really look forward to working 
with you. You all have very distinguished careers at this point 
and I think are going to move down the line to add to your 
resumes and experience and I look forward to supporting you for 
your nominations on the Senate Floor.
    Steve, it is also good to see you here. A cowboy boot-
wearing Westerner at the table. I hope maybe Senator Inhofe 
notices that he is wearing those cowboy boots.
    Senator Inhofe. Yes, he is already an honorary member of 
the boot caucus.
    [Laughter.]
    Senator Udall. Good, that is good.
    One of the things that you mentioned, Mr. Owens, was the 
fact of working with the Indian tribes in your State. I know in 
the neighboring State of Arizona that you have had great 
experience there. It has been something that you have built a 
reputation on and so I hope that you take that attitude to the 
Agency and spread it throughout the Agency because EPA and the 
tribes very much have to work with each other.
    One of the things that I noticed that you did at your 
office was called pollution prevention function. You got it in 
the office that you held in Arizona. You got out in front of 
the problems. Could you talk just a little bit about that? 
Because I think that it is something that could work really 
well at the Federal level.
    Mr. Owens. Thank you, Senator Udall. You and I have known 
each other for a long time and I am looking forward to having 
the opportunity to work with you if I am confirmed.
    The office of OPPTS is the Office of Prevention, Pesticides 
and Toxic Substances and sometimes the prevention piece does 
get overlooked in the work the office does. But I believe that 
is one of the more important things that we can be doing at EPA 
is to work on pollution prevention issues, to work with 
businesses and small communities and individuals as well as 
Indian tribes to reduce pollution and exposure to toxic 
substances in the first place. We did a lot of that at DEQ as I 
mentioned in my opening statement and I look forward to 
continuing to work on that if I am confirmed at EPA.
    Senator Udall. Great. Thank you very much.
    Ms. Darcy, it was a pleasure visiting with you at the 
office yesterday and great to hear how strongly Senator Baucus 
weighs in on your behalf which I think will serve you very well 
in your future career here. I would like to take this 
opportunity to continue to draw your attention to the Army 
Corps projects in New Mexico. We have a couple of levees in New 
Mexico that have been inspected recently and will require major 
repairs in the Albuquerque area. We will pursue a project 
authorization in the next Water Resources Development Act and 
would appreciate your cooperation on that.
    In addition, we have been disappointed that the Southwest 
Valley Flood Control Project in New Mexico has not been 
included in the President's budget in the past years, along 
with several other New Mexico flood control and environmental 
projects and, if you are confirmed, I hope that we can work 
with you and you will work with a New Mexico delegation on 
these issues. Would you commit to do that?
    Ms. Darcy. I certainly will, Senator.
    Senator Udall. Thank you very much.
    Mr. Silva, I am going to just go ahead and submit to you 
questions for the record. But, you know, as you are very aware 
being from California and the west, these water infrastructure 
projects are so important to smaller communities and rural 
areas and I think it is important to bring that balance when 
you come to the Environmental Protection Agency, that you are 
serving all of the Country and making sure that the water 
resource programs that you have serve the rural areas and the 
urban areas.
    So thank you all for your testimony. It is great to have 
you all here today and I look forward to supporting you as soon 
as we can get you to the Floor.
    Thank you.
    Senator Boxer. Absolutely. Absolutely.
    Senator Carper, the floor is yours.
    Senator Carper. Madam Chair, thanks so much. And again, to 
our witnesses, thank you for your willingness to serve, to 
continue to serve our Country in these new roles. And to your 
parents, special thanks for the way they raised you and the 
kind of values that they instilled in you. And to your 
families, some of them are here and some of them are not, but 
thanks to them for their willingness to share you with the 
people of our Nation.
    My first question is to Mr. Owens. I do not believe I had a 
chance to meet you when you were making your rounds but I was 
glad we had a chance to say hello today. I do not know if you 
have ever been to Delaware. I have been to Arizona many times, 
as guest of Janet Napolitano, as it turns out. So, it is nice 
to be able to meet you.
    The Port of Wilmington in my State ranks as the Nation's 
leading gateway for the import of fresh fruit and if I could 
offer the people in this room a banana, or a grapefruit or 
grapes, there is a pretty good chance that it came through the 
Port of Wilmington. We call ourselves the top banana port on 
the East Coast and we are very proud of it.
    But we have, in our State, I think we have 600 or 700 
direct and indirect jobs that flow out from the import of all 
of that fruit during the course of the year and several million 
dollars in tax revenues that inure to our State and to our 
region.
    I mention this because the Port of Wilmington uses methyl 
bromide to fumigate incoming commodities, such as Chilean 
fruit, to prevent foreign pests from entering into this 
Country. We have abided by the regulations that are set by the 
Department of Agriculture for over, I think, 30 years, and 
there has not been, to my knowledge, a case reported by the 
Department of Agriculture of bystander exposure to methyl 
bromide.
    I believe that the division of the EPA that I think you may 
end up leading has proposed changes to the regulations for 
methyl bromide particles in the air, provisions that would 
impact all ports, not just the Port of Wilmington but all ports 
using this substance. I have been told that these changes could 
have serious negative impacts on the Port of Wilmington's 
ability to cost effectively handle fresh commodities coming 
through the port. This could make the importation of Chilean 
grapes cost prohibitive to the point where Delaware would lose 
its Chilean fruit trade, which could be devastating to our 
local economy and to our labor forces.
    I just want to be clear. I share EPA's mission to develop 
clean air standards that protect the public health. I think we 
all do. With that having been said, I want to be sure to work 
with you on this issue, you and your colleagues, not just when 
you are nominated into this position, but once you are 
confirmed. Do you have any thoughts on this?
    Mr. Owens. Senator, if I may, I would like to say I have 
seen your correspondence with EPA on that and the letter from 
Jim Jones, who is the Acting Assistant Administrator for OPPTS, 
and I am generally aware of your concerns. If I am confirmed, I 
very much look forward to sitting down and talking with you 
further about that and learning more about that issue and 
working with you on it.
    Senator Carper. All right. Is that all you want to say?
    [Laughter.]
    Senator Carper. That is fine. You can hold it at that.
    A question, if I could, for Mr. Silva. This is regarding 
CAFO permits. As we were discussing in our meeting last week, I 
said I wanted to work with you on the issue of Concentrated 
Animal Feed Operations or CAFO permits for the EPA's 
clarification on the definition of a discharge last year. 
Delaware had 17 CAFOs. We have a lot of chickens in my State. 
We do not have cattle; we have some, but not many. We have 
pigs, but not a lot. We have a whole lot of chickens. For every 
person who lives in my State, 300 chickens. And for anybody out 
there who is thinking about having chicken for dinner, go for 
it.
    [Laughter.]
    Senator Carper. What is the Chick Fil A commercial? Eat 
chicken? Anyway, eat chicken.
    Anyway, now that EPA is enforcing the rule that any animal 
feeding operation that might pollute surface water must apply 
for a permit under the Clean Water Act, Delaware's farming 
community is facing a drastic change in terms of regulatory 
requirements.
    I just want to ask you to commit to making a visit to 
Delaware, come to those beaches that Ms. Darcy is going to help 
us to replenish and keep strong and beautiful. I wanted just to 
ask you to come to our State. I have been to San Diego any 
number of times and when we visit, in fact my family was back 
there in back in January, it is a lovely State. I was stationed 
in the Navy there for a while.
    But I want you to come over to Delaware and maybe bring 
along with you the EPA Region III Administrator, who I think I 
rode down with the on train today as it turns out, to meet with 
our Delaware Department of Agriculture, with the folks from the 
Department of Natural Resources and Environmental Control, the 
Delaware Farm Bureau and poultry companies. We have got four 
major ones, too. See first-hand what we have done and what we 
have been doing for years in our State. I would just ask that 
you have this meeting before any further EPA inspections or 
actions in Delaware. Would you be willing to take a trip? It is 
about a 2-hour trip over to Delaware.
    Mr. Silva. Sure, Senator, it would be a pleasure to visit 
your State, sir.
    Senator Carper. I think you will like it.
    Finally, for Ms. Darcy, on beach replenishment. A lot of 
people come to Delaware and they come for a variety of reasons. 
Some people from Washington actually go there to go to our 
beaches from Fenwick Island on up to Cape Henlopen State Park. 
Hopefully, in about 2 or 3 years we are going to have the 
Nation's first windmill farm about 12 miles off the coast of 
Rehoboth Beach, another thing for us to really be proud of, I 
think.
    But restoring Delaware's beaches to their congressionally 
authorized size is one of my State's top priorities. Beach 
replenishment is critical to protecting our communities against 
natural disasters, hurricanes and nor'easters, and in 
maintaining and remaining an important tourist destination. 
With the summer season almost now in full swing, the health of 
our beaches is firmly tied to the recovery of Delaware's 
economy.
    I was surprised to learn, when I was Governor, that the No. 
3 industry in my State is tourism. We have been big in cars for 
a long time, chemicals and agriculture and so forth, but the 
No. 3 industry is tourism. But I was disappointed that the 
Administration, the current Administration, did not utilize 
funds provided by Congress in the American Recovery and 
Reinvestment Act for beach nourishment and replenishment. A 
2002 OMB study estimated that each replenishment project 
creates some 2,000, that is 2,000 full-time jobs and generates 
about $88 million in economic activity.
    Going forward, I just want to know if, under your 
leadership, if beach protection and really the protection of 
our shore communities, our beach communities, will be a 
priority for the Army Corps of Engineers.
    Ms. Darcy. I think it is an issue that this Committee has 
dealt with time and time again, re-nourishment of beach 
projects. If confirmed, I am going to look very seriously at 
how we can establish a consistent policy for beach re-
nourishment. I think that, in this President's budget, there 
was some budgeting for beach projects this year. I think it was 
$45 million which has not happened in many past budgets. But I 
am not sure what the breakdown is, whether any of that money is 
for re-nourishment or just for projects.
    Senator Carper. We are encouraged by that. I spoke with the 
CBO Director, Peter Orszag, and expressed my thanks for that. 
In any number of administrations, Democratic or Republican, 
they always single out in their budgets money for the 
protection of our beach communities. I was encouraged to see 
that there is some obligation, some recognition, that we share 
that responsibility.
    We used to compromise. A dozen or so years ago, Federal 
Government and the State governments would actually be 
partners. I think that the deal we finally worked out was that 
the Federal Government provides about 65 percent of funding and 
the States and local communities provide about 35 percent of 
that funding. It took us a long time to get to that place but 
that is where we are today and I think it makes a lot of sense 
and my hope is that we can continue under your guidance and 
your stewardship to work in the same vein of partnership.
    Ms. Darcy. I look forward to it.
    Senator Boxer. Thank you, Senator. Senator, I would like 
to----
    Senator Carper. Madam Chair, based on the testimony we 
heard I am going to release my holds.
    Senator Boxer. Good.
    [Laughter.]
    Senator Carper. All three witnesses----
    Senator Boxer. Actually, I heard that Ms. Darcy actually 
has a couple of pounds of sand that she brought to show her 
commitment to beach replenishment.
    [Laughter.]
    Senator Carper. As a quick aside, I do not know if any of 
you have been to the Delaware beaches but when Justice John 
Roberts, when he was coming through confirmation, he visited 
you, I am sure, and he visited most of the Senators in trying 
to get confirmed to be Chief Justice of the Supreme Court and 
he said to me, during a conversation, I said have you ever been 
to Delaware? And he said, why yes I have. In fact, he said, I 
met my wife there. I said you are kidding. And he said no, I 
met my wife. And I said where? And he said Dewey Beach.
    [Laughter.]
    Senator Carper. I said, no kidding. Yes, he said, we were 
in one of those beach houses in Dewey Beach and we met and fell 
in love and ended up getting married. And I said I never knew 
there were people who met in those beach houses and ended up 
getting married and then go on to become Chief Justice of the 
United States. What a great success story.
    [Laughter.]
    Senator Boxer. Great story. Well, now you have to hope 
there is a beach replenishment case that he takes on as a----
    Senator Carper. We are going to name one of the beaches 
after him or her, I am not sure who.
    Senator Boxer. Well, whatever it takes.
    Well, here is the thing. I do want to second what Senator 
Carper said. Coming from California, and I know Mr. Silva and 
his family would agree, that our beaches, our ocean, that is 
what we are about. And it is a very important economic issue. 
It is not only the replenishment that creates the jobs but in 
my case tourism is one or two. It is billions of dollars. We 
have a coastal economy across this Country that is just 
enormous. And I know that President Obama understands this. And 
I think Tom Carper really did take time to talk about the fact 
that the States think it is so important, even in these tough 
times, that they are willing to put up matching funds. So, I 
will work with him on this.
    I was just a little worried when he started singing the 
praises of San Diego and California that we would lose the 
Silvas right then and there, that they would walk out and say 
we are going home. Because it is so beautiful there.
    But, seriously, I would add my voice to all that has been 
said about your sacrifice to do this. Some of you are moving 
from far away, beautiful places. And some of you are really 
taking on new responsibilities. I can see from Jo-Ellen's 
standpoint where she is going to take on the voice of the 
Administration now. She is going to have to have all of us 
saying why are you not getting this done?
    It is not easy. None of it is easy. The important thing is 
why you do what you do, and that is to make this Country the 
best it can be. Each of us plays a role to the extent that we 
can. And we are so pleased.
    I am really hopeful that we can move your nominations very, 
very quickly. So, what we want to do is make sure that you get 
these answers done even if you have to burn the midnight oil to 
get them done. Then we will get them out of the Committee and 
start hot-lining them.
    I am a little concerned with Gina McCarthy's nomination 
which Senator Barrasso was very up front about putting a hold 
on. It is not a secret. He is upset more about the issues than 
he is with her. He likes her. But this is, to me, not 
constructive. So, I am hopeful we can work it through and if we 
have to file cloture, we will.
    But just so all three of you and your family and friends 
know, we appreciate your being willing to do this and the 
support of your families. And we stand adjourned and wish you 
the best of luck.
    [Whereupon, at 3:30 p.m., the committee was adjourned.]
    [Additional material submitted for the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                         [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
